<html>
<title> - AMERICA'S NEXT GENERATION SUPERCOMPUTER: THE EXASCALE CHALLENGE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                AMERICA'S NEXT GENERATION SUPERCOMPUTER:

                         THE EXASCALE CHALLENGE

=======================================================================


                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        WEDNESDAY, MAY 22, 2013

                               __________

                           Serial No. 113-31

                               __________



 Printed for the use of the Committee on Science, Space, and Technology

       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
81-195                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                         Subcommittee on Energy

                  HON. CYNTHIA LUMMIS, Wyoming, Chair
RALPH M. HALL, Texas                 ERIC SWALWELL, California
FRANK D. LUCAS, Oklahoma             ALAN GRAYSON, Florida
RANDY NEUGEBAUER, Texas              JOSEPH KENNEDY III, Massachusetts
MICHAEL T. McCAUL, Texas             MARC VEASEY, Texas
RANDY HULTGREN, Illinois             MARK TAKANO, California
THOMAS MASSIE, Kentucky              ZOE LOFGREN, California
KEVIN CRAMER, North Dakota           DANIEL LIPINSKI, Illinois
RANDY WEBER, Texas                   EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas


                            C O N T E N T S

                        Wednesday, May 22, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Cynthia Lummis, Chairwoman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

Statement by Representative Randy Hultgren, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    11
    Written Statement............................................    11

Statement by Representative Eric Swalwell, Ranking Minority 
  Member, Subcommittee on Energy, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    12
    Written Statement............................................    13

                               Witnesses:

Dr. Roscoe Giles, Chairman, Advanced Scientific Computing 
  Advisory Committee
    Oral Statement...............................................    16
    Written Statement............................................    18

Dr. Rick Stevens, Associate Laboratory Director for Computing, 
  Environment and Life Sciences, Argonne National Laboratory
    Oral Statement...............................................    32
    Written Statement............................................    34

Ms. Dona Crawford, Associate Director for Computation, Lawrence 
  Livermore National Laboratory
    Oral Statement...............................................    46
    Written Statement............................................    48

Dr. Daniel Reed, Vice President for Research and Economic 
  Development, University of Iowa
    Oral Statement...............................................    60
    Written Statement............................................    62

Discussion.......................................................    71

             Appendix I: Answers to Post-Hearing Questions

Dr. Roscoe Giles, Chairman, Advanced Scientific Computing 
  Advisory Committee.............................................    84

Dr. Rick Stevens, Associate Laboratory Director for Computing, 
  Environment and Life Sciences, Argonne National Laboratory.....    91

Ms. Dona Crawford, Associate Director for Computation, Lawrence 
  Livermore National Laboratory..................................    95

Dr. Daniel Reed, Vice President for Research and Economic 
  Development, University of Iowa................................   102


                AMERICA'S NEXT GENERATION SUPERCOMPUTER:


                         THE EXASCALE CHALLENGE

                              ----------                              


                        WEDNESDAY, MAY 22, 2013

                  House of Representatives,
                                     Subcommittee on Energy
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Cynthia 
Lummis [Chairwoman of the Subcommittee] presiding.



[GRAPHIC] [TIFF OMITTED] 81195.001

[GRAPHIC] [TIFF OMITTED] 81195.002

[GRAPHIC] [TIFF OMITTED] 81195.003

[GRAPHIC] [TIFF OMITTED] 81195.004

[GRAPHIC] [TIFF OMITTED] 81195.005

[GRAPHIC] [TIFF OMITTED] 81195.006

[GRAPHIC] [TIFF OMITTED] 81195.007

    Chairwoman Lummis. Good morning. The Subcommittee will come 
to order. And we are delighted to have a terrific panel here 
this morning, so welcome to our hearing entitled ``America's 
Next Generation Supercomputer: the Exascale Challenge.'' In 
front of you are packets containing the written testimonies, 
biographies, and truth-in-testimony disclosures for today's 
witness panel.
    And now, I will recognize myself for five minutes for and 
opening statement followed by our Ranking Member Mr. Swalwell.
    The development and expanded availability of supercomputers 
has enabled society to push the frontiers of nearly every 
scientific discipline, and accelerate applications of that 
science in countless fields. It has enabled modeling and 
simulation necessary to address national security needs. It 
drives the boundaries of medical research, reduces cost to 
develop new products, and improves materials design processes, 
just to name a few.
    High performance computing has also revolutionized how the 
energy sector operates. Advanced modeling and simulation 
techniques, driven by computer algorithms and faster computing 
speeds, improve the efficiency of energy production and 
consumption technologies.
    These advancements ultimately trace back to Federal 
investments in basic research that provided the foundation for 
most of today's computing technologies. From the first megaflop 
supercomputers of the 1960s, the Federal investments have led 
to push across each landmark thousand-fold speed barrier to 
gigaflops, teraflops, and petaflops. I always think of floppy-
eared rabbits and when I was a kid showing critters in 4H, I 
should have named them Giga, Tera, and Peta, but I just didn't 
know about it back then because that proceeded the first 
megaflop.
    Throughout this computing age, we have witnesses--we have 
witnessed yesterday's supercomputers become today's desktop 
computers and consumer devices often in incredibly short time 
frames. The spillover benefits to society are countless and 
immeasurable.
    The Department of Energy, led by the Advanced Scientific 
Computing Research program, plays a critical role in driving 
these computing technology breakthroughs. DOE supports world-
class computational science facilities, such as the National 
Energy Research Scientific Computing Center. Additionally, DOE 
funds cutting-edge applied mathematics research and next-
generation networking activities.
    DOE's next major computing challenge, constructing an 
``exascale'' computer system that is a thousand times faster 
than current world-leading supercomputers, may be the most 
daunting. Key scientific and technical obstacles associated 
with the architecture and energy efficiency of an exascale 
system must be overcome, and an immense amount of resources and 
effort will be required.
    As we head down this inevitable path to exascale computing, 
it is important we take time to plan and budget thoroughly to 
ensure a balanced approach that ensures broad buy-in from the 
scientific computing community. The Federal Government has 
limited resources and taxpayer funding must be spent on the 
most impactful projects. We need to ensure DOE efforts to 
develop an exascale system can be undertaken in concert with 
other foundational advanced scientific computing activities. 
This morning, we will hear testimony from expert witnesses 
regarding how best to achieve this balance.
    I would like to recognize if he is here, yes, he has come 
in, a leader in this effort, my colleague on the Energy 
Subcommittee, Representative Randy Hultgren.
    I would now like to yield the balance of my time to the 
gentleman from Illinois to summarize the discussion draft of 
his bill, ``American High-End Computing Leadership Act.''
    [The prepared statement of Mrs. Lummis follows:]

       Prepared Statement of Subcommittee Chairman Cynthia Lummis
    Good morning and welcome to today's Energy Subcommittee hearing to 
examine high performance computing research and development challenges 
and opportunities.
    The development and expanded availability of supercomputers has 
enabled society to push the frontiers of nearly every scientific 
discipline, and accelerate applications of that science in countless 
fields. It has enabled modeling and simulation necessary to address 
national security needs. It drives the boundaries of medical research, 
reduces cost to develop new products, and improves materials design 
processes, just to name a few areas.
    High performance computing has also revolutionized how the energy 
sector operates. Advanced modeling and simulation techniques, driven by 
complex algorithms and faster computing speeds, improve the efficiency 
of energy production and consumption technologies.
    These advancements ultimately trace back to Federal investments in 
basic research that provided the foundation for most of today's 
computing technologies. From the first megaflop supercomputers of the 
1960s, Federal investments have led the push across each landmark 
thousand-fold speed barrier-to gigaflops, teraflops, and petaflops. 
Throughout this computing age, we have witnessed as yesterday's 
supercomputers become today's desktop computers and consumer devices 
often in incredibly short time frames. The spillover benefits to 
society are countless and immeasurable.
    The Department of Energy, led by the Advanced Scientific Computing 
Research program, plays a unique and critical role in driving these 
computing technology breakthroughs. DOE supports world-class 
computational science facilities, such as the National Energy Research 
Scientific Computing Center. Additionally, DOE funds cutting edge 
applied mathematics research and next generation networking activities.
    DOE's next major computing challenge-constructing an ``exascale'' 
computer system that is a thousand times faster than current world-
leading supercomputers-may be the most daunting. Key scientific and 
technical obstacles associated with the architecture and energy 
efficiency of an exascale system must be overcome, and an immense 
amount of resources and effort will be required.
    As we head down this inevitable path to exascale computing, it is 
important we take time to plan and budget thoroughly to ensure a 
balanced approach that ensures broad buy-in from the scientific 
computing community. The Federal government has limited resources and 
taxpayer funding must be spent on the most impactful projects. We need 
to ensure DOE efforts to develop an exascale system can be undertaken 
in concert with other foundational advanced scientific computing 
activities. This morning, we will hear testimony from expert witnesses 
regarding how best to achieve this balance.
    I would like to recognize a leader of this effort, my colleague on 
the Energy Subcommittee, Representative Randy Hultgren. I would now 
like to yield the balance of my time to the gentleman from Illinois to 
summarize the discussion draft of his bill, ``American High-End 
Computing Leadership Act.''

    Mr. Hultgren. Thank you, Madam Chair, for holding this 
hearing today. Exascale computing represents a brave new world 
of science for our Nation. The application of the next 
generation of supercomputers is vast. A thousand-fold increase 
in processing power will give us the intense computing tools 
necessary to ensure our national security by better testing our 
nuclear stockpile, revolutionized our understanding and 
treatment of complicated healthcare problems like neurological 
diseases or the genetics underpinning cancer with the ability 
to model new treatments and ensure our Nation's competitiveness 
in the big data economy of the 21st century by spilling over 
knowledge and expertise into industry and academia.
    And while I can postulate further on some of the applied 
uses of faster machines, I also know that simply by making 
these investments in basic science needed to overcome 
challenges in the immensely massive parallelism, power 
management, new architecture, and programming models, we will 
enrich our Nation intellectually and ensure our labor force 
remains competitive.
    I think at that point I will yield back, Madam Chair. Let 
me follow up if I have another minute. Do I?
    Chairwoman Lummis. Mr. Hultgren, you do.
    Mr. Hultgren. Madam Chair, let me summarize my bill 
quickly. Thank you.
    My bill would amend the existing statute by specifying the 
need to target the specific challenges and power requirements 
and parallelism required to make the leap to exascale. It also 
will instruct the Secretary of Energy to conduct a coordinated 
research program to develop exascale computing systems and 
require an integrated strategy and program management plan to 
ensure the health of existing research activities is not 
harmed.
    The bottom line is we do not know all of the ways we will 
use this next-generation of supercomputers, but given the vast 
and unpredictable ways that computing technology has already 
enhanced every part of our lives and given the investments 
being made in other countries to deploy large-scale systems, it 
is more important than ever that we make this investment today.
    I look forward to hearing the witnesses, what they think of 
this legislative proposal, areas we can improve it, challenges 
that we will face. And with that, I do thank you. I apologize 
for my confusion here but I yield back to the Chairwoman. Thank 
you very much, Madam Chair.
    [The prepared statement of Mr. Hultgren follows:]

          Prepared Statement of Representative Randy Hultgren

    Thank you, Madam Chair, for holding this hearing today.
    Exascale computing represents an exciting new world of science for 
our nation. The applications for the next generation of super computers 
are vast.
    A thousand fold increase in processing power will give us the 
intense computing tools necessary to ensure our national security by 
better testing our nuclear stockpile; revolutionize our understanding 
and treatment of complicated health care problems like neurological 
diseases or the genetics underpinning cancer with the ability to model 
new treatments; and ensure our nation's competitiveness in the big data 
economy of the 21st century by spilling over knowledge and expertise 
into industry and academia.
    And while I can postulate further on some of the applied uses of 
faster machines; I also know that simply by making these investments in 
the basic science needed to overcome challenges in immensely massive 
parallelism, power management, new architectures and programming 
models, we will enrich our nation intellectually and ensure our labor 
force remains competitive.
    Madam Chair, my bill would amend the existing statute by specifying 
the need to target the specific challenges in power requirements and 
parallelism required to make the leap to exascale. It would also 
instruct the Secretary of Energy to conduct a coordinated research 
program to develop exascale computing systems, and require an 
integrated strategy and program management plan to ensure the health of 
existing research activities is not harmed.
    The bottom line is, we do not know all of the ways we will use the 
next generation of supercomputers, but given the vast and unpredictable 
ways that computing technology has already enhanced every part of our 
lives, and given the investments being made in other countries to 
deploy large scale systems, it is more important than ever that we make 
this investment today.
    I look forward to hearing what the witnesses think of this 
legislative proposal, areas we can improve it, challenges we face, and 
with that I thank you and I yield back.

    Chairwoman Lummis. The gentleman yields back.
    And I might add on a personal note, today, my daughter is 
being awarded her master's degree in digital media from 
Columbia University. I unfortunately cannot be at her 
graduation because Congress is in session but I get to watch it 
on the computer, so I will get to see it. And I think to 
myself, first of all, what is a master's degree in digital 
media? Somebody my age doesn't even know what that is. And 
certainly, when I was her age, I could not have even begun to 
envision the career that would be open to her as of today, and 
the career that is open to her as of today is due in part to 
the investment that the people in this room and that the 
American people have made in computing, for science, and for 
the benefit of mankind. So this is a very important subject.
    The fact that it is such an important subject leads me to 
let you all know that there will be several comings and goings 
by Committee Members this morning. There are concurrent 
meetings going on around the buildings. In my case, we have the 
IRS in front of us down in Oversight and Government Reform and 
I know there are other Members that may have to come and go 
from time to time. We deeply appreciate your testimony here 
today. In my absence, our Vice Chair Mr. Weber will be in the 
chair, and of course, Mr. Swalwell, who is our Ranking Member, 
who I will recognize now, the gentleman from California, Mr. 
Swalwell.
    Mr. Swalwell. Thank you, Chairman Lummis. And also 
congratulations to your daughter on this achievement. And thank 
you for holding this hearing today. And I want to thank the 
witnesses for being here. I also thank the witnesses who are 
not from the 15th Congressional District. We welcome you as 
well but especially welcome Ms. Crawford from Livermore, 
California.
    I am excited to learn more about the work that the DOE is 
doing in partnership with industry and our national 
laboratories, including both Lawrence Livermore and Berkeley 
national laboratories in particular and are carrying out to 
maintain the United States' leadership in the critical area of 
high-performance computing.
    As I am sure the witnesses will all describe in more 
detail, this capability enables our best and brightest minds to 
gain new insights into societal concerns ranging from 
Alzheimer's disease to climate change. Other examples of both 
industrial and academic research that benefit from our 
advanced, high-end computing capabilities include high-
temperature superconductivity to significantly reduce energy 
losses in transmitting electricity; aerodynamic modeling for 
aircraft and vehicle design; pharmaceutical development; next-
generation nuclear reactor design; fusion plasma modeling; and 
combustion simulation to guide the design of fuel-efficient 
clean engines such as work being carried out at the Sandia 
National Laboratory's combustion research facility.
    In short, many of the most pressing issues of our time, 
whether it is how we find our energy resources, how we make our 
energy resources more efficient, or how we solve the rising 
cost of healthcare can be solved through investments in high-
performance computing.
    A focus of today's hearing is the development of an 
exascale computing capability. Now, my understanding is that 
exascale is often interchangeably used with extreme scale to 
refer to the next generation of supercomputers in general, but 
it also refers to a computing system that would be able to 
carry out a million trillion operations per second. Yes, a 
million trillion or a 1 with 18 zeros after it. That is about 
500 times faster than the world's fastest computer today. Such 
a system would be critical to meeting the Nation's needs in a 
number of important research areas like combustion science, 
climate science, modeling of the human brain, and ensuring the 
reliability of our nuclear weapons stockpile.
    That said, as we pursue the next generation of 
supercomputing capabilities, which I fully support, I want to 
ensure that the Nation is getting the most bang for buck out of 
our current world-leading facilities. It is noteworthy that 
while Lawrence Livermore, Argonne, and Oak Ridge national 
laboratories are three of the most powerful supercomputing 
centers in the world, and they are addressing incredibly 
important scientific issues that really require their advanced 
computing capabilities. Lawrence Berkeley's National Energy 
Research Scientific Computing Center actually serves thousands 
more users with only a fraction of those leadership machines' 
computing power.
    The point is not every computational research effort 
requires the fastest most sophisticated system we can possibly 
build and I think we also need to work more to make sure that 
what is sometimes called capacity supercomputing is more 
accessible to both the academic and industrial research 
communities that could benefit.
    I have always believed whether it was as a local city 
councilman or a sitting Member of Congress that the government 
works best when we can share our resources with the private 
sector. It doesn't serve anyone any good if we are just doing 
the research in the government and not transferring that 
research out to the private sector, and I think in high-
performance computing we have already shown in our laboratories 
we are transferring it out. The transfer out makes us more 
efficient, can reduce healthcare costs, and also more 
importantly, especially in our area, it can create private-
sector jobs on top of the thousands of jobs that already exist 
at our laboratories.
    So with that, I look forward to discussing these important 
issues with each of you today and I yield back the balance of 
my time.
    [The prepared statement of Mr. Swalwell follows:]

    Prepared Statement of Subcommittee Ranking Member Eric Swalwell
    Thank you Chairman Lummis for holding this hearing today, and I 
also want to thank the witnesses for being here--even the ones from 
outside of the 15th District of California!
    I am excited to learn more about the great work that the Department 
of Energy in partnership with industry and our national laboratories, 
including both Lawrence Livermore and Lawrence Berkeley National 
Laboratories in particular, are carrying out to maintain and advance 
U.S. leadership in the critical area of high performance computing.
    As I'm sure the witnesses will describe in more detail, this 
capability enables our best and brightest scientists to gain new 
insights into societal concerns ranging from Alzheimer's disease to 
climate change. Other examples of both industrial and academic research 
that benefit from our advanced high-end computing capabilities include: 
high temperature superconductivity to significantly reduce energy 
losses in transmitting electricity; aerodynamic modeling for aircraft 
and vehicle design; pharmaceutical development; next generation nuclear 
reactor design; fusion plasma modeling; and combustion simulation to 
guide the design of fuel-efficient clean engines, such as work being 
carried out at the Sandia National Laboratories' Combustion Research 
Facility.
    A focus of today's hearing is the development of an exascale 
computing capability. Now, my understanding is that ``exascale'' is 
often used interchangeably with ``extreme scale'' to refer to the next 
generation of supercomputers in general, but it also refers to a 
computing system that would be able to carry out a million trillion 
operations per second. (Yes, a million trillion, or a 1 with 18 zeros 
after it.) That's about 500 times faster than the world's fastest 
computers at today. Such a system would be critical to meeting that 
nation's needs in a number of important research areas like combustion 
science, climate science, modeling of the human brain, and ensuring the 
reliability of our nuclear weapons stockpile.
    That said, as we pursue the next generation of supercomputing 
capabilities-which I fully support-I also want to ensure that the 
nation is getting the most bang per buck out of our current world-
leading facilities. It is noteworthy that while Lawrence Livermore, 
Argonne, and Oak Ridge National Laboratories are 3 of the most powerful 
supercomputers in the world, and they are addressing incredibly 
important scientific issues that really require their advanced 
computing capabilities, Lawrence Berkeley's National Energy Research 
Scientific Computing Center actually serves thousands of more users 
with only a fraction of those leadership machines' computing power. The 
point is, not every computational research effort requires the fastest, 
most sophisticated system we can possibly build, and I think we also 
need to do more to make what's sometimes called ``capacity'' 
supercomputing more accessible to both the academic and industrial 
research communities that could benefit.
    With that, I look forward to discussing these important issues with 
each of you today, and I yield back the balance of my time.

    Chairwoman Lummis. Thank you, Mr. Swalwell.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    Well, at this time I would like to introduce our witnesses, 
and the fun part today is we have two Members here who have 
witnesses from their districts. So I will start by introducing 
Dr. Roscoe Giles, Chairman of the Advanced Scientific Computing 
Advisory Committee of the Department of Energy and Professor at 
Boston University. Dr. Giles--and I have that right, don't I, 
Dr. Giles? Thank you. He has served in a number of leadership 
roles in the community including Member of the Board of 
Associated Universities, Inc., Chair of the Boston University 
Faculty Council, and General Chair of the SC Conference in 
2002. He received his Ph.D. in physics from Stanford University 
in 1975. That is a remarkable record of achievement, Dr. Giles. 
Thank you for being here.
    At this time, I would like to yield to the gentleman from 
Illinois, Mr. Hultgren, to introduce our second witness.
    Mr. Hultgren. Thank you, Madam Chair.
    Our second witness is Dr. Rick Stevens, Associate 
Laboratory Director for Computing, Environment, and Life 
Sciences at Argonne National Laboratory. He heads Argonne's 
Computational Genomics Program and co-leads the DOE's 
laboratory planning effort for exascale computing research. He 
is also Professor of computer science at the University of 
Chicago and is involved in several interdisciplinary studies at 
the Argonne University of Chicago Computation Institute and at 
the Argonne University of Chicago Institute for Genomics and 
Systems Biology. He is doing amazing work at Argonne and at the 
University and the entire Illinois community is proud of his 
contributions to this cutting edge field of science. We are 
very glad to have you here, Dr. Stevens. Thank you.
    I yield back.
    Chairwoman Lummis. Thank you for your attendance today. 
That was my field although at a much lower level of academic 
achievement, Dr. Stevens. We are delighted you are here.
    Now, I would like to yield to the gentleman from 
California, Mr. Swalwell, to introduce our third witness.
    Mr. Swalwell. Thank you, Chairman Lummis.
    And I have been very eager on this Committee to have a 
witness from Lawrence Livermore laboratory.
    Chairwoman Lummis. I can testify to that.
    Mr. Swalwell. I thank you for allowing this witness to be 
here today. Lawrence Livermore is the largest employer in my 
Congressional District and I have to really just commend the 
laboratory for their advocacy of the issues facing Lawrence 
Livermore. They are in constant contact with our office and 
this Committee so I am honored to today introduced Dona 
Crawford, who is the Associate Director of Computation at 
Lawrence Livermore National Laboratory.
    Ms. Crawford is responsible for a staff of roughly 900 to 
develop and deploy an integrated computing environment for 
advanced simulations of complex physical phenomena like climate 
change, clean energy creation, biodefense, and 
nonproliferation. She has served on Advisory Committees for the 
National Academies and the National Science Foundation and 
currently serves as co-Chair of the Council on Competitiveness 
High-Performance Computing Advisory Committee, and is a member 
of IBM's Deep Computing Institute External Advisory Board. Ms. 
Crawford has a master's degree in operations research from 
Stanford University and a bachelor's degree in mathematics from 
the University of Redlands, California.
    Ms. Crawford, thank you for being here today and I yield 
back the balance of my time.
    Chairwoman Lummis. Thank you, Mr. Swalwell. And my first 
exposure to Livermore, I used to walk around the lab. My first 
job out of college was working for a rodeo company in Northern 
California, and we were putting on the rodeo at Livermore.
    Mr. Swalwell. It is the fastest rodeo in the world. Did you 
know that?
    Chairwoman Lummis. You know, considering the rodeo company 
I worked for, I would believe that. Those rodeos ran like that 
and I used to go for walks around the lab just to get some 
exercise when I was there at Livermore putting on rodeos. So I 
know where you are, at least I knew where you are when I was a 
young college graduate in my first job.
    Our final witness is Dr. Daniel Reed, Vice President of 
Research and Economic Development at the University of Iowa. 
Previously, he served as a Senior Leader at Microsoft serving 
as Microsoft's Computing Strategist to Corporate Vice President 
for Extreme Computing, I love that, and Technology Policy. He 
received his Ph.D. in computer science in 1983 from Purdue 
University.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which the Members of the Committee 
will have five minutes each to ask questions. I now recognize 
Dr. Giles for five minutes to present his testimony with deep 
gratitude to all of you for your attendance today. Dr. Giles.

            TESTIMONY OF DR. ROSCOE GILES, CHAIRMAN,

        ADVANCED SCIENTIFIC COMPUTING ADVISORY COMMITTEE

    Dr. Giles. Yes, thank you, Chairman Lummis. And thanks to 
Members of the Committee for inviting me to testify today.
    I think the bill you are considering is very, very 
important for our field and for maintaining the Nation's 
leadership in computing and computational science. I am 
testifying today in my role as Chair of the Advisory Committee 
to ASCR and I will try to reflect that committee's views of 
some elements of the ASCR program and hope to demonstrate that 
we are ready to move forward and sort of eager to move forward 
in this direction. And it is important that we do so.
    The Office of Advanced Scientific Computing Research has 
programs and investments that include computer and networking 
facilities that support DOE's science programs; leadership 
computing facilities for which the exascale discussion is very 
directly relevant with unique high-end capabilities made 
available to DOE and to all the Nation, including industry; 
applied mathematics research whose results provide the 
framework for future applications and systems; computer science 
system and software research, whose results both enable 
applications of current systems and chart the direction for 
future systems.
    And beyond this, ASCR investments--ASCR is the abbreviation 
for Advanced Scientific Computer Research--we get lost in 
acronyms sometimes. ASCR investments have also built human 
expertise in the scientific and technical staff at the labs and 
through attention to integrating the next generation of 
computational science leaders into DOE programs and facilities 
through programs like the Computational Science Graduate 
Fellows Program, which I also am involved with.
    It is hard in these few minutes to state the breadth and 
depth of science productivity that is being enabled by these 
machines. We now see the initial results of the petascale era. 
As one measure, we might mention that more than 2,000 peer-
reviewed research articles based directly on projects supported 
by ASCR computing facilities were published in 2012 alone. One 
I love is a trillion-particle simulation in cosmology, since I 
started out in the '80s struggling to do a million-particle 
simulation of molecular dynamics, and to go another factor of a 
million is astonishing.
    In 2009 our advisory committee was charged with reviewing 
ASCR's body of work on exascale computing. We delivered the 
Rosner report, ``The Opportunities and Challenges of Exascale 
Computing,'' in fall of 2010. We found the case for exascale 
computing compelling and recommended the DOE should proceed 
expeditiously with an exascale initiative so that it continues 
to lead in using extreme scale computing to meet important 
national needs.
    As you have heard mentioned this morning, when we wrote 
that, we were talking about growing a factor of 1,000 forward 
in the future. Now, that is a factor of 500. I am glad to see 
that we are starting to in this bill to really move forward on 
this. And we have had a sense in the committee that we have 
been waiting for that forward motion from the system.
    Some of the--during this time, ASCR has been busy doing 
foundational research to make this possible, so there--and we 
will hear more about it, I am sure, from other speakers. But 
the establishment of co-design centers, computing research, and 
applied mathematics research and some prototype projects with 
fast forward and design forward that are bringing us in this 
direction, and I think we are making progress but not the 
progress we should be making at the scale we should be making 
it, and hopefully, the bill will help deal with that issue.
    Our committee has been asked to review ASCR facility plans 
for the relatively short-term future of the next ten years, not 
including exascale deployment, and we found those facility 
plans to be very sound and compelling that involve enhancements 
to the petascale systems. We have also recently examined the 
intersection of big data needs within the Department of Energy 
and ASCR's exascale program and found them quite convergent. 
The exascale technologies we are talking about developing will 
be essential in systems that analyze big data problems of the 
nature that come to the Department of Energy from both 
experiment and theory, and we have a--quite a long and detailed 
report about that.
    I wanted to just summarize by saying I am very, very glad 
to see the legislation that we have here. I am very supportive 
of the direction we are going. I would only ask that the 
funding level be sure to be sufficient for the scope of our 
dreams. Thank you.
    [The prepared statement of Dr. Giles follows:]
    [GRAPHIC] [TIFF OMITTED] 81195.008
    
    [GRAPHIC] [TIFF OMITTED] 81195.009
    
    [GRAPHIC] [TIFF OMITTED] 81195.010
    
    [GRAPHIC] [TIFF OMITTED] 81195.011
    
    [GRAPHIC] [TIFF OMITTED] 81195.012
    
    [GRAPHIC] [TIFF OMITTED] 81195.013
    
    [GRAPHIC] [TIFF OMITTED] 81195.014
    
    [GRAPHIC] [TIFF OMITTED] 81195.015
    
    [GRAPHIC] [TIFF OMITTED] 81195.016
    
    [GRAPHIC] [TIFF OMITTED] 81195.017
    
    [GRAPHIC] [TIFF OMITTED] 81195.018
    
    [GRAPHIC] [TIFF OMITTED] 81195.019
    
    [GRAPHIC] [TIFF OMITTED] 81195.020
    
    [GRAPHIC] [TIFF OMITTED] 81195.021
    
    Mr. Weber. [Presiding] Thank you, Dr. Giles.
    Now, I recognize Dr. Stevens to present his testimony. Turn 
your mike on.

                 TESTIMONY OF DR. RICK STEVENS,

          ASSOCIATE LABORATORY DIRECTOR FOR COMPUTING,

                 ENVIRONMENT AND LIFE SCIENCES,

                  ARGONNE NATIONAL LABORATORY

    Dr. Stevens. Oh, thanks. Thank you. Madam Chair, Ranking 
Member Swalwell, Members of the Subcommittee, I appreciate this 
opportunity to talk to you about the future of high-performance 
computing research and development and about the importance of 
U.S. leadership in the development and deployment of exascale 
computing.
    In my own work at Argonne and the University of Chicago I 
split my time between trying to advance high-performance 
computing architectures and systems and doing research on how 
to do computational genomics in the pursuit of problems in 
energy, the environment, and infectious disease. And those 
projects have given me insight not only on the underlying 
technology but on the impact of applications.
    I believe that advancing American leadership in high-
performance computing is vital to our national interest. High-
performance computing is a critical technology for the Nation, 
and it is also the underlying foundation for advancing progress 
in modeling and simulation and big data. It serves both of 
these needs. It is also needed by all branches of science and 
engineering for forward progress. It is used more and more by 
U.S. industry to maintain a competitive edge in the development 
of new products and services, and it is emerging as a critical 
policy tool for government leaders who can rely on simulations 
to add insight to policy or technical decisions.
    Today, the United States is the undisputed leader in the 
development and use of high-performance computing technologies. 
However, other nations are increasingly aware of the strategic 
importance of HPC and are creating supercomputing research 
programs that challenge our leadership.
    Japan has significant programs for over a decade in this 
area. They have fielded large-scale machines that are 
comparable to the machines in the United States. But China is 
emerging as a serious player as well and Europe has been 
investing in revitalization of their own high-performance 
computing sector. So we now have at least three sectors on the 
planet besides the United States making serious progress.
    All have set their sights on the development of machines 
that are 1,000 times faster than those most powerful machines 
today. Everyone is looking at exascale. And achieving this goal 
is important. The drive to exascale will have a sustained 
impact on American competitiveness. It gives companies and 
researchers the means and the impetus for developing new 
processes, new services, and new products.
    For example, we need increased compute power to enable 
first principle simulations of materials for energy storage 
that would give us access to a potential 500-mile battery pack 
for electric cars. We want to build end-to-end simulations of 
advanced nuclear reactors that are modular, safe, and 
affordable. We want to revolutionize small business 
manufacturing and digital fabrication and put in place a 
digital supply chain that would potentially revolutionize the 
economy in the United States.
    We want to model controls for power grids that have 
significant amount of renewable energy, and we want to increase 
the resolution of climate models to provide more details on 
regional impacts. And finally, we want to create a personalized 
medicine that can incorporate an individual's genomic 
information into a specific customized plan for prevention or 
treatment of disease.
    All of these challenges require machines that are thousands 
of times faster than the current machines. The development of 
practical exascale system, however, will also mean affordable 
petascale systems and broad deployment, broad accessibility.
    The DOE Office of Science supercomputer centers at Argonne, 
Berkeley, and Oak Ridge are currently oversubscribed by at 
least a factor of three. This means that not all of the science 
that we could be doing on these machines is getting done. With 
current funding levels, these systems can only be upgraded 
about once every four to five years. And at current research--
at current levels of research investment, the U.S. vendors are 
not likely to reach an exascale performance level that we can 
afford to deploy until considerably after 2020. This is a 
problem for us if we want to maintain our leadership.
    Both China and Japan are working on plans to reach the 
level by 2020 or before. Japan is building a $1.1 billion 
investment program aiming to deploy exascale machines by 2020, 
and China has announced a goal to reach exascale before 2020. 
China is aggressively spending on infrastructure for 
supercomputing and succeeding in deploying large-scale systems 
rivaling the largest systems deployed in the United States. It 
is widely expected they will regain lead on this capability 
this year, although their designs are mostly based on 
incorporating U.S. components. In the future, they plan to 
deploy systems based on Chinese components.
    I have been working since 2007 building a plan with my 
colleagues at the laboratories, academia, and DOE, and we 
identified five hurdles that we must cross in order to reach 
exascale. We have to reduce systems powered by a factor of 50; 
we must improve memory performance and cost by a factor of 100; 
we must improve our ability to program these systems; we must 
increase the parallelism in our applications; and we must 
improve reliability. These are not simple tasks but these are 
very important if we are to reach this goal. And I believe we 
have a duty to move as swiftly as we can on this objective.
    Thank you. I would be more than happy to answer your 
questions. Thank you.
    [The prepared statement of Dr. Stevens follows:]
    [GRAPHIC] [TIFF OMITTED] 81195.022
    
    [GRAPHIC] [TIFF OMITTED] 81195.023
    
    [GRAPHIC] [TIFF OMITTED] 81195.024
    
    [GRAPHIC] [TIFF OMITTED] 81195.025
    
    [GRAPHIC] [TIFF OMITTED] 81195.026
    
    [GRAPHIC] [TIFF OMITTED] 81195.027
    
    [GRAPHIC] [TIFF OMITTED] 81195.028
    
    [GRAPHIC] [TIFF OMITTED] 81195.029
    
    [GRAPHIC] [TIFF OMITTED] 81195.030
    
    [GRAPHIC] [TIFF OMITTED] 81195.031
    
    [GRAPHIC] [TIFF OMITTED] 81195.032
    
    [GRAPHIC] [TIFF OMITTED] 81195.033
    
    Mr. Weber. Thank you, Dr. Stevens.
    I recognize Ms. Crawford for her testimony.

                TESTIMONY OF MS. DONA CRAWFORD,

              ASSOCIATE DIRECTOR FOR COMPUTATION,

             LAWRENCE LIVERMORE NATIONAL LABORATORY

    Ms. Crawford. I thank you. I thank Chair Lummis and I thank 
you, Mr. Vice Chairman Weber and Ranking Member Swalwell, for 
inviting me to be here today. I ask that my full statement as 
submitted to the Committee made part of the hearing record, and 
if I may, I will summarize.
    Mr. Weber. Without objection, so ordered.
    Ms. Crawford. I am Dona Crawford, Associate Director of 
Computation at Lawrence Livermore National Laboratory. I will 
shorten that by saying LLNL or Livermore. Livermore is a 
national security laboratory of the National Nuclear Security 
Administration of the Department of Energy and home to Sequoia, 
one of the fastest computers in the world.
    Livermore has the responsibility for maintaining the 
safety, security, and effectiveness of the Nation's strategic 
nuclear deterrent through the Stockpile Stewardship Program. 
High-performance computing has been a core competency of the 
lab to meet this mission need since over 60 years. In fact, the 
NNSA labs, working in close partnership with U.S. HPC industry, 
were at the forefront of the last revolutionary design shift in 
HPC computer architectures and applications development. That 
is the foundation of today's HPC systems.
    Over the past 20 years, the NNSA labs learned many valuable 
lessons, including how to best structure R&D efforts to develop 
computing architectures that meet our demanding mission 
requirements while cost-effectively leveraging market-driven 
technology within industry. These lessons are very valuable in 
our efforts to develop exascale computing.
    I applaud the Committee for its determined efforts to 
sustain U.S. leadership in this vitally important and 
increasingly competitive arena of high-performance computing. 
It is imperative that the United States embark on an R&D 
program to develop new technologies and computer architectures 
to support exascale computing.
    My main point of emphasis today is straightforward. This 
pursuit must be a joint Office of Science/NNSA effort working 
in tandem through partnership with U.S. HPC industry to ensure 
system architectures that meet Office of Science and NNSA 
mission requirements. Working together, the Office of Science 
and NNSA have combined scarce resources and have already 
initiated a number of R&D efforts and contracts with industrial 
partners but lack the resources to invest at the magnitude 
necessary to assure success over the next decade.
    Due to the technically challenging nature of developing 
exascale supporting technologies in computing capability, it is 
vitally important to ensure there are competitive teams each 
with Office of Science and NNSA laboratories partnered with 
U.S. HPC industry collaborators. Equally important is the 
development of an integrated strategy and program management 
plan.
    Current U.S. leadership in HPC is a direct result of the 
Nation's investment in computational capability to support the 
Stockpile Stewardship Program. U.S. HPC investment has provided 
significant computing capability to maintain the U.S. nuclear 
deterrent and this computing capability enables us to simulate 
in 2-D at high resolution and high physics fidelity or simulate 
in 3-D at low resolution. Today, we cannot simulate in 3-D at 
high resolution and high physics fidelity which will be 
required for the stockpile mission needs. Therefore, a new 
architecture enabling exascale computing is required for the 
NNSA mission.
    This will not be easy. Development of exascale-class 
systems cannot be achieved through a straightforward refinement 
of today's technologies. Surmounting multiple technical issues 
will require sustained research and development effort. But 
there is no doubt exascale computing will yield valuable 
benefits to near-term mission requirements, as well as to U.S. 
economic competitiveness.
    Over the last two decades, supercomputers have transformed 
the way the world conducts scientific research and has enabled 
discovery and development across a broad set of disciplines. In 
a 2008 U.S. Council on Competitiveness report, the Council 
states, ``supercomputing is part of the corporate arsenal to 
beat rivals by staying one step ahead of the innovation curve. 
It allows companies to design products and analyze data in ways 
once unimaginable.''
    In one example, Livermore is leveraging its HPC 
capabilities in the California Energy Systems for the 21st 
Century Initiative. The California Public Utilities Commission 
and state investor-owned utilities are collaborating with 
Livermore to improve and expand energy systems to meet our 
future energy needs. The owners, operators, regulators, and a 
joint team of technical experts will use the Nation's most 
advanced modeling simulation and analytical tools to gain 
unprecedented insight and generate new data to reduce risk and 
inform solutions to issues facing 21st-century energy systems 
such as renewable energy integration and use of smart grid 
technology.
    There are many other examples that highlight the importance 
of supercomputing and reinforce the value of maintaining U.S. 
HPC leadership. For now, let me close again by saying thank you 
and I look forward to working with the Committee to ensure 
continued U.S. HPC leadership.
    [The prepared statement of Ms. Crawford follows:]
    [GRAPHIC] [TIFF OMITTED] 81195.034
    
    [GRAPHIC] [TIFF OMITTED] 81195.035
    
    [GRAPHIC] [TIFF OMITTED] 81195.036
    
    [GRAPHIC] [TIFF OMITTED] 81195.037
    
    [GRAPHIC] [TIFF OMITTED] 81195.038
    
    [GRAPHIC] [TIFF OMITTED] 81195.039
    
    [GRAPHIC] [TIFF OMITTED] 81195.040
    
    [GRAPHIC] [TIFF OMITTED] 81195.041
    
    [GRAPHIC] [TIFF OMITTED] 81195.042
    
    [GRAPHIC] [TIFF OMITTED] 81195.043
    
    [GRAPHIC] [TIFF OMITTED] 81195.044
    
    [GRAPHIC] [TIFF OMITTED] 81195.045
    
    Mr. Weber. Thank you, Ms. Crawford.
    Dr. Reed, I recognize you for your testimony.

                 TESTIMONY OF DR. DANIEL REED,

     VICE PRESIDENT FOR RESEARCH AND ECONOMIC DEVELOPMENT, 
                       UNIVERSITY OF IOWA

    Dr. Reed. Thank you. Chair Lummis, Vice Chair Weber, 
Ranking Member Swalwell, Members of the Subcommittee, my name 
is Dan Reed and I am the Vice President for Research and 
Economic Development at the University of Iowa. Thank you for 
the opportunity to share my perspectives on exascale computing 
and to respond to your questions regarding the American High-
End Computing Leadership Act.
    Today, I would like to make four points regarding the 
exascale and high-performance computing program followed by a 
set of specific recommendations for the future. They are drawn 
from my nearly 30 years of experience in high-performance 
computing as a researcher, as an academic and corporate leader, 
as a Director of the National Science Foundation Supercomputing 
Center, and as a participant in national science and technology 
policy.
    First of all, as others have noted, high-performance 
computing is unique among scientific instruments. It is 
distinguished by its universality as an intellectual amplifier. 
New, more powerful supercomputers and computational models 
yield insights across all scientific and engineering 
disciplines. Advanced computing is also essential for analyzing 
the torrent of experimental data produced by scientific 
instruments and sensors, but it is about more than science. 
With advanced computing, real-time data fusion, and powerful 
numerical models, we have the potential to predict the tracks 
of devastating tornadoes such as the recent one in Oklahoma, 
saving lives, and ensuring the future of our children.
    My second point is that we face an uncertain future of 
computing and in particular high-performance computing 
leadership in this country. As others have noted, today, HPC 
systems from Oak Ridge, Lawrence Livermore, and Argonne 
National Laboratories occupy the first, second, and fourth 
place on the list of the world's fastest computers. From this, 
one might surmise that all is well, yet U.S. leadership in both 
deployed HPC capability and in the technologies needed to 
create future systems is under challenge.
    Also, as others have noted, other nations are investing 
strategically in high-performance computing to advance national 
priorities. And the U.S. research community has repeatedly 
warned of the potential and actuality of eroding U.S. 
leadership in computing and in high-performance computing and 
emphasized the need for sustained and strategic investment. I 
have had the privilege of chairing many of those studies 
personally as a member PITAC, of PCAST, of National Academies' 
boards, and yet many of these warnings have been largely 
unheeded.
    This brings me to my third point: the deep interdependence 
a basic research of vibrant U.S. computing industry and high-
performance computing capability. It has long been axiomatic 
that the United States is the world leader in information 
technology. Our global leadership is not a birthright. As Andy 
Grove, the former CEO of Intel, noted in his famous aphorism 
``only the paranoid survive.'' U.S. leadership has been 
repeatedly earned and hard-fought based on continued Federal 
Government commitment to basic research, translation of that 
research into technological innovations, and the creation of 
new products by vibrant U.S. industry.
    This brings me to my fourth point. Computing is in deep 
transition to a new era with profound implications for the 
future of U.S. industry and HPC. My colleague Mr. Stevens 
touched on many of the issues around energy management and low-
power devices and they are key to this topic. U.S. consumers 
and businesses are an increasingly small minority of the global 
market for mobile devices and for cloud services.
    We live in a post-PC world, as we all know, where U.S. 
companies compete in a global device ecosystem. Unless we are 
vigilant, these economic and technical changes could further 
shift the center of enabling technology R&D away from the 
United States with profound implications for our future HPC 
capability. Given this, what are my recommendations for the 
future? First and most importantly, we need to change our model 
for HPC research and deployment if the United States is to 
maintain its leadership. This must include deep and sustained 
interagency collaborations defined by a regularly updated 
strategic R&D plan and associated, verifiable metrics, 
commensurate budget allocations, and accountability to realize 
the plan's goals.
    DOE's partners--it needs the National Science Foundation, 
the Department of Defense, NIST and NIH, and other agencies to 
fulfill their important and complementary roles to DOE as 
engaged partners and supporters of basic research in technology 
development. We also need long-term industry engagement.
    Second, advanced HPC deployments are crucial, but the 
computing R&D journey is as important as any single system 
deployment. A vibrant U.S. ecosystem of talented and trained 
people and technical innovation is the true lifeblood of 
sustainable exascale computing.
    Finally, we must balance and embrace dual-use technology 
R&D supporting both high-performance computing and ensuring 
U.S. industry competitiveness. Neither HPC nor big data R&D can 
be sacrificed to advance the other, nor can hardware R&D 
dominate investments in algorithms, software, applications, and 
people. All are crucial.
    Finally, let me again commend this Committee for its 
continued commitment to high-performance computing. It has been 
my privilege to testify here many times. I appreciate the 
support of the Committee. And like my colleagues, I would be 
delighted to answer questions at the appropriate time.
    [The prepared statement of Dr. Reed follows:]
    [GRAPHIC] [TIFF OMITTED] 81195.046
    
    [GRAPHIC] [TIFF OMITTED] 81195.047
    
    [GRAPHIC] [TIFF OMITTED] 81195.048
    
    [GRAPHIC] [TIFF OMITTED] 81195.049
    
    [GRAPHIC] [TIFF OMITTED] 81195.050
    
    [GRAPHIC] [TIFF OMITTED] 81195.051
    
    [GRAPHIC] [TIFF OMITTED] 81195.052
    
    [GRAPHIC] [TIFF OMITTED] 81195.053
    
    [GRAPHIC] [TIFF OMITTED] 81195.054
    
    Mr. Weber. Thank you, Dr. Reed. And thank you all for your 
testimony. Man, lots of questions come to mind. And, you know, 
I guess I am an old-timer. I grew up back in the '60s and we 
didn't have computers, actually, we did. There was a flat 
table, you put a quarter in, and you chased a little Pac-Man 
around. Those were our computers.
    So I have a question here, and I think you kind of alluded 
to it, Dr. Reed, but I will ask this maybe starting with Dr. 
Giles. Is it Giles?
    Dr. Giles. Giles actually.
    Mr. Weber. Giles, there you go. Thank you.
    In December 2011 Congress directed DOE to provide a 
strategic roadmap relating to the development of an exascale 
computing system. However, it is my understanding that after 15 
months of the mandated completion date, the report is not yet 
finalized. Are you aware of this report?
    Dr. Giles. I am aware of it but my position is as an 
external representative of the community relative to ASCR so I 
am actually not an insider and I have not seen the report.
    Mr. Weber. Okay.
    Dr. Giles. My understanding is exactly what you said.
    Mr. Weber. Okay.
    Dr. Giles. But I don't have anything unfortunately to add 
to that.
    Mr. Weber. Nothing that you want to admit here publicly?
    Dr. Giles. No, actually nothing that I know. Anything I 
know, I will tell you.
    Mr. Weber. Of course, our goal is to get it. Dr. Stevens, 
how about you?
    Dr. Stevens. Well, I am aware of the report. I think it is 
a fine plan. I think that the internal process of getting that 
report out is what has blocked it, and I hope it reaches you 
quickly.
    Mr. Weber. Okay. Any help you can give us in that endeavor?
    Dr. Stevens. I don't have any specific recommendation 
except to just reemphasize that this is a critical plan that 
must be delivered and must be understood and articulated and 
executed.
    Mr. Weber. Okay. Thank you. And Ms. Crawford, I don't mean 
to put you on the hot seat, but you are on the hot seat.
    Ms. Crawford. I have nothing to add to what Dr. Stevens 
said. We are--we work at the laboratories and we are not part 
of the formal process between the DOE and the OMB to get that 
report out. I do support what is written in the report. The 
labs had a lot of input. I have not seen the final report.
    Mr. Weber. And Dr. Reed, since you came to us with four 
points followed by recommendations, and I love that by the way. 
One of the things you said in your recommendation was the 
Department of Energy needs partners and long-term industry 
engagement. How do we expedite this? How do we make this 
happen?
    Dr. Reed. Well, I think there are several points relevant. 
One is to recognize that, as I said, it is a false dichotomy to 
pit investment and some of these big data issues against high-
performance computing, and I think frankly that is the root of 
some of the issues that we have to resolve in terms of moving 
forward.
    In terms of the agencies, I believe, as I pointed out in my 
written testimony, that they each fulfill and historically have 
fulfilled important and complementary roles. The Department of 
Energy has been crucial in terms of advanced prototyping and 
deploying of the largest scale systems. The other agencies, 
though, provide support for enabling technology research. The 
National Science Foundation is one of the key enablers of that 
long-term research.
    What is important is that all those players be at the table 
and be engaged in supporting this integrated agenda. I think 
from the industry's perspective to sort of answer your specific 
question, that is where industry--and I speak now again from my 
industry experience--it is important that the government be a 
committed and not fickle partner because the cost of money and 
the time planning for companies to execute is really crucial. 
And as I was saying, that combination is key to the future of 
the U.S. industry not just for high-performance computing but 
for how much information technology means to the U.S. economy.
    Mr. Weber. All right. Thank you. And Ms. Crawford, let me 
come back to you. I think you said that this exascale computing 
either can't or won't be achieved through refinement. What did 
you mean by that?
    Ms. Crawford. What I mean by that is the current system 
architectures today can't simply be scaled up to produce a 
usable and cost-effective system. In principle, one could scale 
it up and you would have a system that would fill the room and 
would take 100 megawatts of power, so that is not a cost-
effective system. So the technologies have to change and we 
have to change in memory, in processors, in storage and 
networking and the programming models. And so that is what I 
mean by we can't simply scale-up the programs of today.
    Mr. Weber. Let me send that over to Dr. Stevens. And you 
mentioned about more or less power, I guess explain, you said 
less power.
    Dr. Stevens. Right. We need to develop processors and 
memory and network components that consume considerably less 
power than current systems in order to scale-up. Right now, if 
we took a current kind of 10 petaflop system and scaled it up 
to an exascale, it would consume nearly a gigawatt of power, 
which is not feasible from a physical infrastructure standpoint 
or a----
    Mr. Weber. Right.
    Dr. Stevens. --cost standpoint. So we need much more power-
efficient devices. We also need better programming models 
because we are going to have to have a lot more parallelism 
inside these machines, 1 million--or 1,000 times more 
parallelism than we have now and we need ways of accessing that 
parallelism easily for programmers. So we have a lot of work to 
do. We know what to do. The DOE's plan includes all of these 
activities so it is--I think the United States has a good 
position to do this; we just need the resources and the long-
term commitment.
    Mr. Weber. All right. Thank you. And I just want to make an 
observation before I yield to the Ranking Member and that is 
that I am glad to hear you say that national security is 
involved in this and tied up in this. That is very crucially 
important. And I think it will carry a lot of weight with 
Congress. Hopefully, it will. So I thank you for your 
testimony. And with that, I yield to Mr. Swalwell.
    Mr. Swalwell. Thank you, Mr. Chair. And my questions will 
principally be for Ms. Crawford.
    First, does research in high-performance computing require 
the United States Government to make investments? And what I 
mean is why can't we simply rely on the private sector to 
innovate and invent the next supercomputing architecture and 
software and then the government can just buy off-the-shelf 
technology?
    Ms. Crawford. The short answer is, yes, the U.S. Government 
does need to invest in order to shape the exascale 
architectures for our mission needs. I can use an old example. 
When we started the Accelerated Strategic Computing Initiative 
in the mid-1990s for the Stockpile Stewardship Program, 
industry and the consumer base was driving computing in a 
direction that would not meet our needs. And without our 
investment and our sustained investment and focused on 
cooperation and developing those processors that would meet our 
needs, we wouldn't have had the computers and the computing 
capability that we have today. And so today, it is essential 
that we work together with the Office of Science laboratories 
and the NNSA laboratories to meet this mission needs.
    A shorter answer perhaps is that we are going to follow 
industry technologies. We can't afford our own, you know, 
brand-new fab or our brand-new machines. What we want to do is 
pay on the margins to make those machines viable for our 
particular applications, which is mimicking the, you know, 
physical phenomena around us.
    Mr. Swalwell. And when we look at our global competitors--
Japan, China, India, Brazil, Russia--are they allowing or 
relying solely upon the private market or are they also having 
government investment at the table as well?
    Ms. Crawford. There is strong government investment in 
Japan, China, Russia, the European Union. It is about $1.1 
billion of investment in Japan. I would have to do the 
translation but the Ministry of Science and Technology five-
year plan within China is investing and again not just in the 
hardware technologies but they are investing in the low-level 
software and the applications and making sure that they have 
the ecosystem in order to be able to deploy these systems 
effectively to make a difference to their underlying national 
security and economic competitiveness. So----
    Mr. Swalwell. So it sounds like----
    Ms. Crawford. --they are going to be large investments.
    Mr. Swalwell. It sounds like for the United States to keep 
its edge in high-performance computing, we will need to 
continue to have the Federal Government make investments in 
these programs, is that right?
    Ms. Crawford. Absolutely.
    Mr. Swalwell. You talked a little bit about the joint 
partnership that must take place between NNSA and the Office of 
Science. Why is exascale capability so critical to DOE's 
National Nuclear Security Administration?
    Ms. Crawford. So then I will take a more focused view on 
just what is going on within the NNSA laboratories. It is our 
duty to assess the state of the stockpile on an annual basis, 
and the stockpile is being decreased in the numbers of weapons 
and the types of weapons. That makes each single weapon 
remaining in the stockpile critically important to understand 
what is going on----
    Mr. Swalwell. Going toward a more leaner and meaner model, 
right?
    Ms. Crawford. Leaner and meaner, and so those systems, as 
they age, they are being modernized as parts begin to fail, and 
so there are a number of things that we need to understand, you 
know, physically. You know, nuclear weapons are very complex. 
Think about parking your car in the garage and not turning it 
on but then wanting to be able to use it when you have to. You 
know, there are special materials that are changing over time 
and all kinds of things that go on just sitting there.
    We need high fidelity 3-D simulations to understand, you 
know, the initial conditions, the engineering features, safety 
features, the security features, and today, we cannot simulate 
at that high fidelity. So we have a number of--what we do is 
look at the kinds of calculations we are going to do and the 
kinds of computing that is required to do those calculations 
and so--for stockpile assessment, for the life extension 
programs for materials aging, for safety and surety, we have a 
range of exascale needs for the kinds of calculations that will 
have to go on in high fidelity, high-resolution 3-D, and they 
range from half-an-exascale to 1,000 exascales over the period 
of the next 10 years.
    Mr. Swalwell. And Ms. Crawford----
    Ms. Crawford. Starting in about 2018.
    Mr. Swalwell. Can you tell me more about Livermore's work 
to address industrial and medical research needs, for example, 
your groundbreaking simulation of the human heart and your 
recent work with the California Energy Commission to improve 
energy management throughout the State and how exascale and HPC 
have affected our ability to do this?
    Ms. Crawford. I would be glad to. Having developed these 
capabilities for our mission drivers, then they are applicable, 
as Dr. Reed has said, to many other activities. Last year, we 
worked with IBM to develop a code called cardioid and it does--
it models the electrical signals of the heart and it has the 
potential to be used to test drugs or medical devices, the code 
ran in nearly real-time across our 20 petaflop machine at 
Livermore beating an astonishing 60 beats per minute, so this 
is almost, you know, 12 percent of real-time. This calculation 
ran at 59 percent of peak of this machine, and that is--you 
know, it is very incredible and amazing thing to take a new 
code and put it on a new machine and run at this scale. It runs 
in a time to solution over 1,200 times faster than the previous 
state-of-the-art and this work shows promise for what advanced 
computing can do for understanding the human body. But it also 
demonstrated the extreme level of specificity and technical 
acuity required to achieve this result. And of course, these 
insights that we gain there will then be applied back to the 
stockpile.
    Mr. Swalwell. Great. Well, thank you so much, Ms. Crawford. 
And thank you again to our other witnesses. Thank you, Mr. 
Chair.
    Mr. Hultgren. [Presiding] Thank you. And I will recognize 
myself for five minutes for a few questions.
    Part of our challenge as a Subcommittee is certainly to 
understand the right thing to do but also to present it to the 
larger Committee and even beyond that to Members of Congress, 
so a couple of questions. Just if you have been messaging or 
how to present how important this is and why this is so 
important so I would address this first question to Dr. Stevens 
and Ms. Crawford. Wonder if you could just discuss the expected 
breadth of applications for the exascale computing. Is this 
something that could be used for a wide range of important 
disciplines from material to chemistry to medicine to nuclear 
science similar to the current supercomputers or is the 
expected range of disciplines more narrow such as climate 
science modeling or for weapons development?
    Dr. Stevens. So the range of applications for exascale are 
no less broad than the current machines. In fact, there are 
many problems that haven't been tried in the past, particularly 
in biomedical science where we were just afraid to try them. We 
didn't have enough compute power. This idea of trying to build, 
say, detailed models in the human body, not just the heart but 
now include the lungs, include the nervous system, include the 
gastrointestinal system and build a virtual human, that is a 
problem that will require 1,000 times current machines. It is 
not really feasible so people haven't tried it. So my sense is 
that we will find more and more applications as we build more 
capable systems.
    We are also going to increase the ability for these systems 
to deal with data, and so a new class of applications that is 
emerging in both national security and in engineering research 
is this idea of doing modeling simulation with uncertainty 
quantification, this idea that not only will you get a result, 
you will get some confidence measure on that result. And that 
is something that requires hundreds of times more compute power 
than the current capability which means you can only do one 
simulation.
    Ms. Crawford. I second everything that Dr. Stevens said. 
And it is limitless. Computing is so foundational. Anything 
that--any physical process that you can represent 
mathematically, which are most of them, you can then model in 
the computer with great fidelity. And the greater the fidelity 
we have, the better we can understand the world around us. And 
so I can just go on and on and on but, you know, we work at our 
laboratory in a number of areas with industry, with other 
national laboratories, with academia to make sure that we are 
applying these to the breadth of possibilities.
    Mr. Hultgren. Well, Ms. Crawford, if I can get into just a 
little bit more specific and really following up on the Ranking 
Member's discussion and also on the Vice Chairman's of what 
does speak to Members of Congress and inspire us to make a 
commitment, especially a financial commitment at a time like 
this, and certainly, one of those is national security.
    So I wondered if you could just talk briefly. Is exascale 
computing considered critical to advancing national security, 
and if so, has the National Nuclear Security Administration 
gone on record to say that? If so, how is the NNSA prepared to 
financially contribute to this effort and what would be an 
appropriate percentage contribution to an exascale computer 
from NNSA, would you say?
    Ms. Crawford. There is a lot of questions there so----
    Mr. Hultgren. Yes.
    Ms. Crawford. --let's see if I can remember them.
    Mr. Hultgren. The first thing is have they gone on record 
of saying that this is a key component? And then basically then 
what kind of commitment should we expect from them?
    Ms. Crawford. Computing is the integrating element of 
maintaining the safety, security, and reliability of the 
nuclear weapons stockpile without returning to underground 
tests. So by integrating element, what I mean is we have the 
old test data, we have aboveground small experiments that we 
are doing, and we have a lot of theory and we have our new 
models. And we are bringing this all together in the computer. 
So this is an integrating element and this is the only way that 
we know to understand what is going on in the nuclear weapon. 
And so for that reason, we believe that it is extremely 
important.
    The NNSA is making an investment in the Advanced Scientific 
Computing Program. To maintain leadership, you need to have a 
base program. You need to have, you know, sort of a near-term 
program and you need to have a far-reaching program. Currently, 
the Office of Science and the NNSA both have a very strong base 
program. We have heard about the wonderful facilities at the 
laboratories, and of course it is not just the computer 
hardware itself but it is the applications that help us 
understand the world around us.
    We are investing with the Office of Science in some near-
term research with industrial partners to look at some of those 
long lead time technology changes that need to be made. We need 
to make additional investments that are not in our current 
budgets in the programming environments for the exascale 
computing and in the math libraries so that we can actually use 
this billion-way parallelism.
    Mr. Hultgren. Okay. I see my time is expired. At this 
point, I hope that we will have an opportunity to have a second 
round of questioning as well.
    Mr. Swalwell. I don't have any objection.
    Mr. Hultgren. We can talk about that. Well, let's go ahead 
and we will recognize Mr. Veasey from Texas. Okay. Then Mr. 
Lipinski from Illinois is recognized for five minutes.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I wanted to ask everyone on the panel a question about 
international partnerships. You know, obviously this cuts both 
ways. You can reduce the cost of reaching exascale capabilities 
with international partnerships but then there is the issue of, 
you know, damaging our Nation's economic competitiveness, 
potentially our national security, because we are not doing 
this on our own. Now, where do you come down on this? Is it 
worthwhile and how far should we go in international 
partnerships and at what point is it still an advantage? At 
what point does it become a disadvantage for us economically, 
giving up our lead on high-end computing? So whoever wants to 
start with that one. Dr. Stevens?
    Dr. Stevens. I will start. So I think the primary 
opportunity in international collaboration is in software, and 
in particular, the components of software that are open source 
that right now most of the software that runs on these machines 
other than the applications is built on--based on open source 
technologies developed largely in the United States. That is a 
significant lift to move all of that software to next-
generation platforms, and international collaboration can help 
there provided that the software is--stays in the open.
    I think where we don't want to go at least in the near term 
is in deep hardware partnerships internationally. I think that 
is a place where we want to maintain our competitive edge. We 
have significant advantages with the U.S. vendor community and 
we want to maintain that as long as we can.
    Mr. Lipinski. Thank you. Anyone else? Ms. Crawford?
    Ms. Crawford. Yes. I would like to add that it is very 
important that the United States maintain the key intellectual 
property for the next supercomputer levels. If we control that, 
we have the high ground for the standards space base that will 
make all the decisions in the coming decade, and I would not 
want to cede that to another country. I cannot trust the U.S. 
nuclear weapons technology to a system built in China, say. 
That is untenable. I would like to not consider that those low-
power technologies are developed ahead of time in other 
countries that we will use embedded in our intelligence 
systems. To me, it is very important that the United States 
take a very strong leadership position in this technology 
arena.
    Mr. Lipinski. Thank you. Dr. Reed?
    Dr. Reed. Yes, if I might add to that. It is part of the 
reason in my testimony I spoke very specifically to the 
importance of U.S. industry engagement. And as we move into 
this increasingly mobile device, low-power world, which is one 
of the key enabling technologies for future exascale systems, 
it is really crucial that the U.S. vendors maintain the 
competitive edge and strike a balance, as we do in terms of 
investment, between the global market and maintaining the 
unique capabilities for U.S. national security.
    Now, that is part of the role of the Federal Government in 
terms of, as Ms. Crawford said in her testimony, about shaping 
the direction of industry to ensure that we have the technology 
capability that we need.
    And I would echo that there are other uses as well. As we 
have talked about the rise of data analytics and its importance 
for national security and signal intelligence and other 
domains, that is another area where we must think carefully 
about many of the enabling technologies of which hardware is 
one, but the algorithms and other pieces need careful scrutiny 
also.
    Mr. Lipinski. Thank you.
    Dr. Giles. Yes, I would agree with what has been said. Just 
two points: I think it would be truly shameful for us to give 
up the elements of leadership that we have. And one of the 
things we pointed out and we asked in our exascale report was 
the criticality of time and of seizing the opportunity that in 
some way is presented uniquely to us to advance this field. But 
many, many countries will want to do that and we have a little 
bit of a time advantage because of our starting place.
    The other point, which is--it goes sort of in the direction 
of the open source software is the observation that a lot of 
the open science that is done in the world is done with 
international collaboration and with international connections. 
And we would, I think, like to still be in the position of 
having a lot of influence on the under-layer of that on which 
we will all build. But there certainly is international 
collaboration in science and I wouldn't want to minimize that--
the importance of that for the open science community.
    Mr. Lipinski. Thank you very much. And I want to ask a 
question if the Chairman would give me just a few extra seconds 
here. I just want to also echo what I know some of my 
colleagues have stated. I know exascale computing is important 
but we have to make sure that we don't pursue that at the 
expense of other important R&D activities that ASCR is doing. 
And I yield back.
    Mr. Hultgren. The gentleman yields back. We will go through 
a second round of questioning if anyone would have other 
questions, so I will begin by recognizing myself for five 
minutes.
    And I would address this first to Dr. Stevens but also ask 
if any of you would have other thoughts on this and really 
following up on Mr. Lipinski's questions of timing and 
competitiveness. And I wondered, Dr. Stevens, if you would have 
some thought of what level of investment is needed for the 
United States to maintain global leadership in scientific and 
technical computing for the next decade? And then something 
specific of if we maintain current investment, at what point 
would China surpass us in computing capabilities? And then also 
just looking at dates, what type of approach and how much 
investment would be necessary for us to lead to a deployable 
system by 2020?
    Dr. Stevens. Okay. So on the first one in terms of the 
resources required to do this, in the plans developed by the 
laboratories, we estimated that in addition to the current 
funding levels that we have, we would need an increment over 
time of approximately $400 million a year. That would be split 
between the two partners, the Office of Science and the NNSA. 
At that funding level, we think it is feasible--not guaranteed 
but feasible--to deploy a system by 2020. Of course, we made 
those estimates a few years ago when we had more runway than we 
have now. And that investment would go to both hardware and 
software and some applications of them--more applications would 
be needed by that time.
    At the current funding level, not including the bill----
    Mr. Hultgren. Right.
    Dr. Stevens. --that is in front of us, it is estimated that 
we would not reach an exascale capability until middle of the 
next decade. We don't have accurate estimates of precisely what 
China will do but my guess is they will probably exceed us by 
the end of the decade if we were in that scenario. I don't 
remember your----
    Mr. Hultgren. I think that covered it. So really it is, you 
know, without the investment, it is going to be probably 2025 
before we would reach that level?
    Dr. Stevens. Absolutely.
    Mr. Hultgren. Do you think with the investment, is it a 
possible----
    Dr. Stevens. We have----
    Mr. Hultgren. --expectation to reach exascale levels by 
2020?
    Dr. Stevens. I think it is possible. I think we would have 
to get moving faster than we are now and of course the industry 
is ready to do this. Labs are ready to do it; academia is ready 
to do it. We just need the resources and the commitment and 
also to do it in a way that doesn't cannibalize the current 
program. We need the base--we have to build on the base both in 
the Office of Science and in NNSA, and so this is really, 
really looking at incremental resources unfortunately to do it.
    Mr. Hultgren. Okay. Thank you. Do any of the others have 
any thoughts or disagreement?
    Ms. Crawford. I would just add that understanding what the 
sustained commitment is, whatever that dollar level turns out 
to be, is critical because then we can plan into the future. 
And not knowing whether, you know, the base budget is cut and 
the exascale R&D budget is cut and we have got a commitment to 
do this and then we are--now, we must do that because we have a 
contract and yet that prevents us from doing something else. So 
not knowing is really difficult to plan ahead and manage it 
effectively. So understanding that and sustaining that is very 
important.
    Mr. Hultgren. I absolutely agree and it is one of the 
things I am passionate about. I know other Members of our 
Subcommittee and Committee are as well of bringing some 
certainty specifically to research and to science. When we are 
looking to advance these programs it is so important that we 
are not budgeting month-to-month, which this place, Washington 
D.C., has kind of fallen into the habit of doing, but it has 
incredible detrimental impact, I know, on the great work that 
you all are doing.
    So I for one and I know my colleagues on both sides of the 
aisle would love to see some of that change. We are going to be 
fighting for that.
    Let me switch gears just a little bit and address this to 
Dr. Giles if I could and also to Dr. Stevens. But with respect 
to achieving an extraordinary number of computations per 
second, exascale appears to be a somewhat arbitrary goal. With 
current budgetary constraints, could DOE consider slower 
systems that would still be by far the fastest in the world or 
how do you see that fitting into this challenge of kind of 
keeping up with the rest of the world if DOE were to say, well, 
you know, we want to do some advancement but we are not going 
to go for that larger goal. We will just kind of settle for a 
lesser goal. How do you see that impacting the work that you 
are doing and the work that other nations are doing?
    Dr. Giles. Okay. Well, I think the key research to lower 
power consumption, to identify the pathway that takes us to 
exascale is one that is defined by that goal but which is a 
sort of--has a certain integrity of its own. Okay. If you do 
that--if one does that and makes that commitment to do their 
research and to do that beginning development, then how far you 
take it is part of the deployment question of how big a machine 
you build with the technology that you have done the research 
for. It--so--at least that is my take on it. I am not the 
technologist that Rick is and you may have a comment on that.
    Dr. Stevens. Well, what I can say is that the laboratories 
are excellent stewards of the Nation's money----
    Dr. Giles. Yes.
    Dr. Stevens. --and we will buy the most capable systems 
that we can afford to buy when we have to replace and when we 
can replace the current systems. So I think that the question 
of, you know, can we settle is really a question of do we want 
to settle for not being able to do all the science or the most 
impactful engineering or address the most important national 
security challenges? We will do the best we can with what is 
provided to us. There is no question. I think lowering our 
sights though is not in our DNA.
    Mr. Hultgren. Right.
    Dr. Stevens. Right.
    Mr. Hultgren. No, that is helpful. Thank you. My time is 
expired. I will recognize the Ranking Member, Mr. Swalwell.
    Mr. Swalwell. Thank you, Mr. Chair. And I appreciate your 
comments about providing more certainty to our national 
laboratories. And we know that it is not just the laboratories 
who need the certainty but also private industry or any 
contractors who depend on work from the laboratories.
    One of the first lessons I learned when I was a planning 
commissioner years ago on a local sign ordinance issue from a 
local small business owner was vote for me, vote against me, 
but just give me certainty and, you know, do not have, you 
know, month-to-month sign regulations that give us no certainty 
at all, which now I have learned here, as the Chair said, 
month-to-month budgets also don't serve our laboratories well 
or private industry well. And so I join you in hoping that we 
can find ways to provide more certainty.
    I was hoping to just go witness by witness briefly and if 
you could just tell me for my own edification, and I am sure 
many others are curious, what are the private/public 
partnerships that you have at your laboratories through the 
exascale program?
    Dr. Giles. Well, let's see. I don't run a laboratory.
    Mr. Swalwell. Sure.
    Dr. Giles. But I would note things like you do run a lab 
that does the INCITE program in ASCR that invites researchers 
from outside DOE and from industry and with the particular 
emphasis on some industries to use the most advanced facilities 
that we have, so I think that would be one that I would 
identify coming out of ASCR.
    Mr. Swalwell. Great. And Dr. Stevens?
    Dr. Stevens. Well, just a few that we have done in the 
recent past. We have got a collaboration with Pratt & Whitney 
developing more efficient turbine engines, with Procter & 
Gamble on a variety of improving consumer products, with 
Cummins in improving diesel engines, and Caterpillar improving 
their ability to model whole vehicles and including the 
transmission systems and so forth, with the Mayo Clinic in 
applying computations and larger-scale problems in 
metagenomics, and so on. There is a long list. Some of these 
are collaborations with end-user companies and some are 
collaborations with companies like IBM or with Intel and with 
Cray in developing next-generation technologies, and we also 
work with small businesses.
    So the laboratories have collaborations on both the end-
user component of this technology and the company is developing 
the technology itself.
    Mr. Swalwell. And when I hear some of those companies, IBM, 
Intel, Cummins, Caterpillar, I think of billions and billions 
and billions of dollars of exports. Those are some of the 
largest exporters in the United States, and if we are going to 
truly achieve our goal of doubling our exports over the next 
five years, making sure that those companies can continue to 
play a part in reducing that trade deficit--we have about $40 
billion every month--is crucial and it sounds like the 
laboratories are helping them to do that so they can sell their 
goods and services to the marketplace outside the United 
States.
    Dr. Stevens. Absolutely. And we are also working with 
companies like Dow and DuPont and Johnson Controls. And it is a 
long list, right? And I think we exactly get this idea of 
helping American industry be more competitive.
    Mr. Swalwell. Great. And Ms. Crawford?
    Ms. Crawford. So rather than going through the long list, 
let me talk about the barriers for industrial adaptation of 
advanced computing. There have been a number of studies and 
there are three main barriers. One is the cost of establishing 
a supercomputing facility, the computer itself, the computing 
room, et cetera. The second one is the expertise, you know, 
having the skilled workforce that understands how to use these 
computers in a meaningful way for their products. And then the 
third is the software itself that helps them understand their 
products and how to improve those products. So the kind of 
partnerships that Dr. Stevens is talking about and that we have 
in our laboratory are helping to demonstrate to industry how to 
overcome those barriers so that they can in fact utilize this. 
And once they have firsthand demonstration and know the value, 
then they will start making the investments themselves at a 
higher level to drive their own productivity and 
competitiveness.
    Mr. Swalwell. Great. And Dr. Reed, I mean also just like 
Dr. Giles I know you do not run a laboratory but any public/
private partnerships you are familiar with that are working 
right now and also helping the innovation economy?
    Dr. Reed. Certainly. And I have been in similar roles in 
the past. As I mentioned, I used to run an NSF supercomputer 
center and we did very similar things in Illinois when I was 
there. Advanced manufacturing was certainly a target, logistics 
and supply chain optimization. But in Iowa now, there are many 
issues around advanced biological modeling and how we think 
about the future of healthcare in terms of everything from 
modeling the characteristics of lungs and what the implications 
are for drug delivery, how we might work with companies about 
those issues.
    I would echo what Ms. Crawford said, though. What is really 
crucial in those engagements and use of high-performance 
computing is simplicity of use because the domain experts are 
interested in advancing either the technology or the science or 
its applications and less interested in understanding what 
those of us in the technology business might view as the really 
cool stuff.
    Mr. Swalwell. Right.
    Dr. Reed. It is a means to an end and so those software 
user interface issues are really important.
    When I was at Microsoft, I spent a great deal of time 
working with the community in science on exactly those issues. 
How do we bring the power of advanced computing into small 
companies and into individual's hands where, from their 
perspective, the ease-of-use that they find familiar in their 
mobile device or their PC extends seamlessly and apparently 
magically to exploit those advanced capabilities?
    Mr. Swalwell. Great. Well, thank you. Thank you, Mr. Chair. 
This has been a great hearing. You know, I didn't pay enough 
attention to this stuff when I was in high school. I am 
learning a heck of a lot now in Congress and I could sit here 
for another few hours but I know our witnesses and our panel 
have other places to be. But thank you again.
    Mr. Hultgren. Thank you. Thank you. And I do want to thank 
each one of you for being here today on a very busy day on 
Capitol Hill. And with that, I just want to thank you for your 
valuable testimony and I want to thank the Members for the 
questions that they have had. The Members of the Committee may 
have additional questions, especially with competing hearings 
that were going on at the same time, so we will ask if you 
would be willing to respond in writing to questions that we 
would submit.
    And with that thought, we will keep the record open for two 
weeks for additional comments and written questions from 
Members and request for your response to those.
    With that, I again want to thank you so much for your time 
and for your wisdom and information today. With that, the 
witnesses are excused and this hearing is adjourned. Thank you.
    [Whereupon, at 11:20 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Roscoe Giles
[GRAPHIC] [TIFF OMITTED] 81195.055

[GRAPHIC] [TIFF OMITTED] 81195.056

[GRAPHIC] [TIFF OMITTED] 81195.057

[GRAPHIC] [TIFF OMITTED] 81195.058

[GRAPHIC] [TIFF OMITTED] 81195.059

[GRAPHIC] [TIFF OMITTED] 81195.060

[GRAPHIC] [TIFF OMITTED] 81195.061

Responses by Dr. Rick Stevens
[GRAPHIC] [TIFF OMITTED] 81195.062

[GRAPHIC] [TIFF OMITTED] 81195.063

[GRAPHIC] [TIFF OMITTED] 81195.064

[GRAPHIC] [TIFF OMITTED] 81195.065

Responses by Ms. Dona Crawford
[GRAPHIC] [TIFF OMITTED] 81195.066

[GRAPHIC] [TIFF OMITTED] 81195.067

[GRAPHIC] [TIFF OMITTED] 81195.068

[GRAPHIC] [TIFF OMITTED] 81195.069

[GRAPHIC] [TIFF OMITTED] 81195.070

[GRAPHIC] [TIFF OMITTED] 81195.071

[GRAPHIC] [TIFF OMITTED] 81195.072

Responses by Dr. Daniel Reed
[GRAPHIC] [TIFF OMITTED] 81195.073

[GRAPHIC] [TIFF OMITTED] 81195.074

[GRAPHIC] [TIFF OMITTED] 81195.075

                                 <all>

</pre></body></html>
